                            FARM CREDIT ADMINISTRATION
                            OFFICE OF INSPECTOR GENERAL

                         FEDERAL INFORMATION SECURITY
                               MANAGEMENT ACT OF 2002
                                          EVALUATION

                    For the Fiscal Year Ending September 30, 2007




    HARPER, RAINS, KNIGHT & COMPANY, P.A.
CERTIFIED PUBLIC ACCOUNTANTS & CONSULTANTS
            RIDGELAND, MISSISSIPPI
                                                    FY 2007 FISMA Evaluation


Table of Contents

Federal Information Security Management Act Evaluation
  Executive Summary..................................................................................................................... 1
  Objective...................................................................................................................................... 2
  Scope ........................................................................................................................................... 2
  Methodology................................................................................................................................ 4
  Results ......................................................................................................................................... 6

APPENDIX A: OMB M-07-19 Section C – Reporting Template for IGs ................................... 11
APPENDIX B: Acroyms and Abbreviations................................................................................ 16




Prepared by Harper, Rains, Knight & Company, P.A.
                                 FY 2007 FISMA Evaluation



Executive Summary

Under the Federal Information Security Management Act of 2002 (FISMA), the Farm Credit
Administration's (FCA or Agency) Chief Information Officer (CIO) and Inspector General (IG)
are responsible for conducting annual assessments of the Agency's information security program
and reporting the results to the Office of Management and Budget (OMB). Under contract with
the FCA's Office of Inspector General (OIG), Harper, Rains, Knight & Company, P.A. (HRK)
performed an evaluation of the Agency's security program and practices, solely to assist the IG
with the annual evaluation and reporting to OMB.

This report includes the objectives, scope, methodology, and results of our evaluation of FCA's
information security program. In addition, this report includes the IG reporting template
(Appendix A) as required by OMB's FY 2007 Reporting Instructions for the FISMA in OMB
Memorandum M-07-19.

Our evaluation included determination of the critical elements which represent tasks that are
essential for establishing compliance with FISMA, and guidelines issued by OMB, the
Government Accountability Office (GAO), the CIO Council, and the National Institute of
Standards and Technology (NIST).

We determined that FCA has an effective information security program. FCA conducted an
annual self-assessment of the Agency's security program, categorized systems based on risk,
applied a common security configuration, and completed certifications and accreditations on all
Agency systems. In addition, FCA implemented an Agency-wide security awareness and
training program, tested the Agency's continuity of operations plan, and followed a
comprehensive incident response program.

We observed an active, engaged CIO with a cohesive, experienced, and well trained staff, which
is proactive in their approach to information security and responsive to suggestions made during
the FISMA evaluation. We also reviewed the CIO's plan to internally develop a Senior Agency
Information Security Officer (SAISO) over the next fifteen months which includes requiring the
SAISO to be a Certified Information Systems Security Professional (CISSP).

Our evaluation did not reveal any information security control matters that we deemed to be
significant deficiencies that must be reported under FISMA.




Prepared by Harper, Rains, Knight & Company, P.A.                                             1
                                  FY 2007 FISMA Evaluation


Objective

The objectives of the evaluation were to (1) assist the IG in responding to reporting requirements
issued under OMB Memorandum M-07-19 and (2) verify and test the Agency's overall
information system security program and practices.



Scope

Our evaluation covered FCA's Agency-owned and contractor operated information systems of
record as of September 30, 2007. FCA is a single program agency with five mission critical
systems. Mission critical systems are defined as any telecommunications or information system
used or operated by an agency, a contractor of an agency, or an organization on behalf of an
agency that processes any information, the loss, misuse, disclosure, or unauthorized access to or
modification of, would have a debilitating impact on the mission of an agency.

In accordance with FISMA and OMB's implementation guidance, we evaluated the following
mission critical systems.

1. General Support Systems

   a. Microsoft Windows Operating System (Windows)

       Windows is an operating system, or the core program of a computer, that allows other
       programs and applications to operate. Windows is fully integrated with networking
       capabilities and was designed for client/server computing to facilitate user workstation
       connections to servers and the sharing of information and services among computers.
       Windows Server is the primary operating system installed on servers in the FCA network.
       Additionally, Windows is installed on Agency laptop and desktop computers where they
       function as a client to the FCA network as well as a stand-alone operating system for the
       client hardware. Through Windows, users can access network services such as file
       servers, e-mail, the Internet, applications and shared hardware such as printers.

2. Major Applications

   a. Lotus Domino (Notes)

       Lotus Domino (Notes) is a database system software owned and maintained by FCA.
       The application supports the daily administrative tasks including e-mail, group
       discussion, calendaring and scheduling, database management, forms, and workflow of
       FCA.

   b. Consolidated Reporting System (CRS)

       CRS is a relational database containing financial and statistical information on active and
       inactive Farm Credit Institutions. CRS contains three distinct subsystems that are Call
       Report, Loan Account Reporting System (LARS), and Web-based CRS Reports:


Prepared by Harper, Rains, Knight & Company, P.A.                                               2
                                FY 2007 FISMA Evaluation



      •       The Call Report is comprised of financial information including a statement of
      condition, statement of income, and supporting schedules that is collected quarterly from
      the System Institutions. The Call Report subsystem is monitored, analyzed, and assessed
      by FCA examiners and financial analysts to ensure that the integrity and confidentiality
      of financial data are maintained.

      •        The LARS database contains specific loans of Farm Credit System lender
      institutions. Institutions electronically submit the data quarterly through FCA's secure
      Web site. The loan data is verified and validated by FCA personnel.

      •       The Web-based CRS Reports is an FCA developed application used for making
      reports available on FCA's Web site. The Freedom of Information Act (FOIA) versions
      of the reports are available to the public. The non-FOIA versions of the reports are only
      available to authorized users.

   c. Oracle Federal Financials from Bureau of the Public Debt (BPD)

      Oracle Federal Financials supports all FCA core accounting functions including budget
      execution, accounts payable, disbursements, purchasing, travel, accounts receivable,
      general ledger, document tracking, project cost accounting, and external reporting.

   d. Personnel/Payroll System (PPS) from National Finance Center (NFC)

      NFC provides core personnel and payroll processing functions, including distributed
      application and telecommunications support for PPS, to FCA.




Prepared by Harper, Rains, Knight & Company, P.A.                                            3
                                  FY 2007 FISMA Evaluation


Methodology

HRK conducted this independent evaluation following the requirements found in GAO's Federal
Information System Controls Audit Manual (FISCAM), OMB Circular A-130, Appendix III,
"Security of Federal Automated Information Resources," current NIST guidance, and the CIO
Council Framework. We used these criteria to evaluate FCA's practices in determining
compliance with FISMA.
Our evaluation was performed from April through September 2007 at FCA's headquarters in
McLean, Virginia. This evaluation was performed in accordance with Government Auditing
Standards, issued by the Comptroller General of the United States, for performance audits and
applicable IS Auditing Standards, issued by the Information Systems Audit and Control
Association (ISACA).
In performing this evaluation, we conducted interviews with key personnel, observed daily
activities performed by FCA personnel, evaluated and reviewed policies and procedures
provided by FCA, and evaluated the C&A and internal network security assessment (INSA)
performed by external parties. HRK did not perform technical testing of FCA's information
systems.
The evaluation focused on the actual performance of the Agency's security program and
practices and not on how the Agency measures its performance in its own evaluations. We relied
on the guidelines contained within NIST Special Publication 800-53A for evaluating information
systems. Our assessment procedures included identifying the security controls for each system
and determining whether those controls were implemented correctly, operating as intended, and
producing the desired outcome with respect to meeting the security requirements of the system.
NIST Special Publication 800-53A organizes security control assessment procedures into three
"classes" of controls (management, operational, and technical). It further divides the three
classes of controls into seventeen security control families. For each security control family, we
made a summary determination as to the effectiveness of FCA's related controls. If the controls
for one or more of each category's critical elements were found ineffective, then the controls for
the entire category are not likely to be effective. We exercised professional judgment in making
such determinations. Below is a summary description of the seventeen security control families
we assessed at FCA.
   •   Management
           o Risk assessment – Controls in place to categorize information systems in
             accordance with FIPS 199, assess the potential impact of unauthorized access, and
             update the risk assessment regularly.
           o Planning – Controls in place to ensure a security plan is in place and to ensure the
             plan is readily available, updated regularly, and tested.
           o System and services acquisition – Controls in place to allocate resources during
             capital budgeting, using a system development life cycle, and to implement the
             information system using security engineering principles.
           o Certification, accreditation, and security assessments – Controls in place to certify
             and accredit information systems and interconnected systems, perform continuous
             monitoring, and develop and update the plan of action and milestones (POA&M).




Prepared by Harper, Rains, Knight & Company, P.A.                                               4
                                 FY 2007 FISMA Evaluation

   •   Operational
          o Personnel security – Controls in place for employee screening, handling of
            terminated employees, and compliance failure sanctions.
          o Physical and environmental protection – Controls in place for physical access to
            the building and information systems, visitor access, and preventative measures
            for physical damage to information systems components.
          o Contingency planning – Controls in place for planning, training, testing, and
            reviewing all contingency plans as well as providing alternative storage and
            processing sites.
          o Configuration management – Controls in place to document configuration
            information, monitor changes, and restrict access to information systems.
          o Maintenance – Controls in place to control remote diagnostic activities, restrict
            personnel allowed to perform maintenance, keep maintenance contracts, and have
            spare parts on hand.
          o System and information integrity – Controls in place to correct system flaws,
            monitor systems events, and protect against unauthorized changes.
          o Media protection – Controls in place to ensure only authorized personnel have
            access to sensitive media, appropriately mark and store media, and sanitize media
            when it is no longer needed.
          o Incident response – Controls and procedures in place to train personnel in their
            roles, test response capability, detect incidents, and appropriately handle, monitor,
            and document incidents.
          o Awareness and training – Controls in place to implement security awareness and
            training for all employees including contractors, monitor training, and stay up to
            date with current technology and security practices.
   •   Technical
          o Identification and authentication – Controls in place to identify and authenticate
            users of information systems, authenticate devices on information system
            networks, and manage users of information systems.
          o Access control – Controls that limit and/or monitor access to computer resources
            (data, programs, equipment, and facilities) to protect against unauthorized
            modification, loss, and disclosure.
          o Audit and accountability – Controls in place to identify auditable events, generate
            and review audit logs, and protect audit data and reports.
          o System and communications protection – Controls in place to separate user
            functionality from information system management functionality, protect against
            Internet attacks, and establish trusted communication paths between the user and
            the system.
The results were formally communicated to the CIO and responsible personnel from the
Technology Team on September 13th. On September 17th we held a follow-up meeting with the
CIO and key personnel from the Technology Team to discuss the OMB M-07-19 IG Reporting
Template. We continued discussions via phone and email through September 25th, when we held
an exit conference with the IG, the CIO, and their respective key personnel.



Prepared by Harper, Rains, Knight & Company, P.A.                                              5
                                  FY 2007 FISMA Evaluation


Results

Our procedures did not reveal any information system security control matters that we deemed to
be significant deficiencies that must be reported under FISMA. Below you will find a summary
of our observations from each of the security control families.

Risk assessment

FCA has controls in place to categorize information systems in accordance with FIPS 199, assess
the potential impact of unauthorized access, and update the risk assessment, at least annually.
FCA has policies and procedures in place and they are periodically reviewed. FCA categorizes
information systems in accordance with FIPS 199. During fiscal year 2007, FCA lowered its
FIPS 199 risk ranking from high to moderate for the general support system and CRS. We
concur with these risk rankings. FCA conducts annual risk assessments of their information
systems. FCA has a Continuity of Operations Plan (COOP) in place and it is reviewed annually.
FCA has a system in place to track general security notifications and assess potential impact.
While FCA has an Information Security Officer (ISO) that performs daily information security
activities, the CIO has been acting as the SAISO. FCA has developed a plan that requires the
ISO to obtain certification as a CISSP and take appropriate security training over the next fifteen
months before being considered for the SAISO position.

Planning

FCA has controls to ensure a security plan is in place and to ensure the plan is readily available,
updated regularly, and tested. FCA has policies and procedures in place and they are periodically
reviewed. FCA has incorporated its security plans into the COOP plan. The security plans are
reviewed annually and revised when appropriate. FCA provides training to employees on the
expectations of using their information systems. FCA tests the impact of changes prior to
implementing changes on their information systems.

System and services acquisition

FCA has controls in place to allocate resources during capital budgeting, use a system
development life cycle, and implement the information system using security engineering
principles, where applicable. FCA has policies and procedures in place and they are periodically
reviewed. The Information Resources Management (IRM) plan outlines and budgets for future
information technology needs. FCA applies a system development life cycle to their information
systems, and security is considered during FCA's information system planning and acquisition
process. FCA tracks licenses and installations to comply with software usage restrictions. FCA
does not allow software to be downloaded and installed unless it is supplied by FCA or approved
on an individual basis. FCA designs and implements information systems using security
engineering principles.




Prepared by Harper, Rains, Knight & Company, P.A.                                                6
                                  FY 2007 FISMA Evaluation


Certification, accreditation, and security assessments

FCA has controls in place to certify and accredit information systems and interconnected
systems, perform continuous monitoring, and develop and update the POA&M. FCA has
policies and procedures in place and they are periodically reviewed. FCA conducts assessments
of security controls in information systems annually to determine the extent to which controls are
implemented correctly, operating as intended, and producing the desired outcome. FCA
authorizes all interconnections to other information systems outside the accreditation boundary
and monitors/controls the information system interconnections on an ongoing basis. FCA has a
process to develop, update, and report POA&Ms as required by OMB. FCA has a policy and
performs C&As on its information systems every three years or when significant information
system changes occur. FCA plans to require the system owners to sign-off on the C&A and
authorization to operate (ATO) documents beginning in FY 2008.

Personnel Security

FCA has controls in place for employee screening, handling of terminated employees, and
compliance failure sanctions. FCA has policies and procedures in place and they are periodically
reviewed. Each FCA Position Description (PD) has a "Position Sensitivity" indicator. FCA
employees are not granted access to information systems without a sponsor's approval. When an
employee is terminated, quits, or retires, FCA requires the individual to complete a separation
checklist. FCA requires new hires and contractors to sign FCA's Computer Security Program
Employee Certification which declares they have read FCA's Computer Security Program policy.

Physical and environmental protection

FCA has controls in place limiting physical access to the building and information systems,
monitoring visitor access, and preventing physical damage to information systems components.
FCA has policies and procedures in place and they are periodically reviewed. FCA issues
identification badges to all personnel, including contractors. FCA controls all entry points via
either guarded entry or Kastle Key access. A visitor access log is maintained at the front desk.
FCA's information system distribution and transmission lines are run through the secured
computer room. All visitors must be escorted in to the computer room by an FCA employee, and
a visitor log is maintained for the computer room. FCA maintains an uninterruptible power
supply for the secured computer room, and FCA implements redundant heating, ventilation, and
air conditioning (HVAC) units in the controlled computer room to control the temperature. FCA
keeps track of computers through the Property Management Tracking System (PMTS).

The Technology Team offices are located on a high traffic common floor with non-FCA tenants
and the building's cafeteria. We observed the side-entrance doors to the offices were closed and
locked. We found the door at the main entrance to the offices was open during work hours.
However, we noted all entrance doors were clearly marked "FCA Personnel Only." We
observed the nightly cleaning crew unlock and open all doors in the offices when on-site. The
guards periodically check and secure the doors after the cleaning crew has left the premises. The
CIO has plans to use the Fairfax County Police Department to assist FCA with addressing the




Prepared by Harper, Rains, Knight & Company, P.A.                                               7
                                  FY 2007 FISMA Evaluation

concerns identified with the nightly cleaning crew and appropriately securing doors to sensitive
FCA office space as well as other physical security issues.

Contingency planning

FCA has controls in place for planning, training, testing, and reviewing all contingency plans as
well as providing alternative storage and processing sites. FCA has policies and procedures in
place and they are periodically reviewed. FCA personnel have been trained as to their
responsibilities in the event of an emergency and the COOP has been regularly tested via the
Continuity of Government Condition (COGCON) exercises. The COOP is reviewed annually
and updated as required. FCA has an emergency operations center that serves as its alternate
processing site and provides the resumption of information system operations for mission critical
functions when the primary processing capabilities are unavailable. FCA runs backups of user
and systems information daily (incremental) and weekly (full).

Configuration management

FCA has controls in place to document configuration information, monitor changes, and restrict
access to information systems. FCA has policies and procedures in place and they are
periodically reviewed. Information system changes are tested and monitored after being placed
in production. FCA has established configuration settings for information technology, set default
access as none, and enforces configuration settings in all components of the information system.
FCA has adopted a standard configuration policy that incorporates the intent of the NIST
baseline security configurations. In addition, FCA plans to adopt the NIST baseline security
configurations with all new technology implemented as well as document any deviations from
the NIST security configurations on all systems.

Maintenance

FCA has controls in place to control remote diagnostic activities, restrict personnel allowed to
perform maintenance, keep maintenance contracts, and have spare parts on hand. FCA has
policies and procedures in place and they are periodically reviewed. FCA runs Hewlett Packard
(HP)/Compaq Insight System Manager, which monitors the health of servers and reports on
problems via email. FCA controls and monitors maintenance on FCA laptops. FCA has a
contract with a four hour response time to repair the servers.

System and information integrity

FCA has controls in place to correct system flaws, monitor system events, and protect against
unauthorized changes. FCA has policies and procedures in place and they are periodically
reviewed. FCA has virus protection software installed and it updates automatically. FCA
continuously monitors the information systems to detect attacks and prevent unauthorized use.
FCA participates in the United States Computer Emergency Readiness Team (US-CERT)
program. FCA restricts which personnel can make changes to the information systems. FCA
applications have edit checks built in to ensure data integrity.




Prepared by Harper, Rains, Knight & Company, P.A.                                              8
                                  FY 2007 FISMA Evaluation


Media protection

FCA has controls in place to ensure only authorized personnel have access to sensitive media,
appropriately mark and store media, and sanitize media when it is no longer needed. FCA has
policies and procedures in place and they are periodically reviewed. FCA restricts user access to
drives and applications. FCA labels do not indicate what is stored on the media and back up
tapes are stored in a safe. However, we found system media is bar coded so that appropriate
personnel can identify what is contained on each tape. FCA controls the system media and
restricts the pickup, receipt, transfer, and delivery of such media to authorized personnel.

Incident response

FCA has controls and procedures in place to train personnel in their incident response roles, test
their response capability, and actively monitor, respond, and document incidents. FCA
periodically reviews and updates policies and procedures. FCA trains their employees to respond
to incidents. FCA continually monitors for intrusions and documents and investigates unusual
activity. We found during the current year FCA significantly enhanced their incident response
handling capabilities.

Awareness and training

FCA has controls in place to implement security awareness and training for all employees
including contractors, monitor training, and stay up to date with current technology and security
practices. FCA has policies and procedures in place and they are periodically reviewed. FCA
requires all employees complete an annual information technology security awareness training,
and FCA performs additional security awareness activities through FCA newsletter and News
Flash emails.

Identification and authentication

FCA has controls in place to identify and authenticate users of information systems, authenticate
devices on information system networks, and manage users of information systems. FCA has
policies and procedures in place and they are periodically reviewed. FCA users must be
authenticated before accessing any resource. The encryption used on the Web site to access FCA
information, Secure Socket Layer (SSL), meets federal standards.

Access control

FCA has controls that limit and monitor access to computer resources to protect against
unauthorized modification, loss, and disclosure. FCA has policies and procedures in place and
they are periodically reviewed. FCA deactivates accounts after a defined period of inactivity and
passwords must be changed periodically. FCA uses least privilege access. FCA enforces
segregation of duties through assigned authorization. FCA locks computers after three
consecutive unsuccessful login attempts. FCA does not permit employees to use personally
owned equipment to access the FCA network. Although FCA does not continuously monitor




Prepared by Harper, Rains, Knight & Company, P.A.                                               9
                                  FY 2007 FISMA Evaluation

those with administrative privileges to FCA's information systems, FCA has compensating
controls that mitigate risks to systems.

Audit and accountability

FCA has controls in place to identify auditable events and generate, review, and protect audit
data and reports. FCA has policies and procedures in place and they are periodically reviewed.
FCA information systems generate and store logs which provide an audit trail. FCA is notified
via email of suspicious events in addition to the event being recorded in the log. FCA has the
ability to produce audit trail reports from the firewall and intrusion detection system. FCA's
event/audit logs include time stamps. FCA audit log information is restricted to the information
technology personnel.

System and communications protection

FCA has controls in place to separate user functionality from information systems management
functionality, protect against Internet attacks, and establish trusted communication paths between
the user and the system. FCA has policies and procedures in place and they are periodically
reviewed. FCA separates information system user functionality from information system
management functionality. FCA has controls in place to limit the effects of common attacks,
including denial of service attacks. FCA has controls in place to ensure high priority processes,
such as virus scans, have access to needed resources. FCA information is transmitted by secure
means such as SSL when appropriate. FCA terminates remote connections after 30 minutes of
inactivity. FCA separates FOIA information from private information on the Web site.




Prepared by Harper, Rains, Knight & Company, P.A.                                              10
                                                            FY 2007 FISMA Evaluation


APPENDIX A

OMB FISMA Reporting Template
                                                   Section C - Inspector General: Questions 1 and 2
Agency Name:                 Farm Credit Administration                                                           Submission date:                1-Oct-07
                                                               Question 1: FISMA Systems Inventory

1. As required in FISMA, the IG shall evaluate a representative subset of systems used or operated by an agency or by a contractor of an agency or other organization
on behalf of an agency.

In the table below, identify the number of agency and contractor information systems, and the number reviewed, by component/bureau and FIPS 199
system impact level (high, moderate, low, or not categorized). Extend the worksheet onto subsequent pages if necessary to include all
Component/Bureaus.

Agency systems shall include information systems used or operated by an agency. Contractor systems shall include information systems used or operated by a
contractor of an agency or other organization on behalf of an agency. The total number of systems shall include both agency systems and contractor systems.

Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency;
therefore, self reporting by contractors does not meet the requirements of law. Self-reporting by another Federal agency, for example, a Federal service provider, may
be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.

                             Question 2: Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing
2. For the Total Number of Systems reviewed by Component/Bureau and FIPS System Impact Level in the table for Question 1, identify the number and
percentage of systems which have: a current certification and accreditation, security controls tested and reviewed within the past year, and a contingency
plan tested in accordance with policy.

                                                                           Question 1                                                      Question 2
                                                        a.                     b.                  c.                    a.                      b.                c.
                                                  Agency Systems       Contractor Systems   Total Number of          Number of              Number of          Number of
                                                                                               Systems            systems certified     systems for which systems for which
                                                                                             (Agency and           and accredited        security controls contingency plans
                                                                                              Contractor                                 have been tested have been tested
                                                                                               systems)                                   and reviewed in in accordance with
                                                                                                                                           the past year         policy


                                                                                                       Total
                             FIPS 199 System                 Number          Number   Total                        Total     Percent     Total    Percent     Total   Percent
Bureau Name                                      Number              Number                           Number
                             Impact Level                   Reviewed        Reviewed Number                       Number     of Total   Number    of Total   Number   of Total
                                                                                                     Reviewed
Farm Credit Administration   High                                                                0            0
                             Moderate                   3          3          2         2        5            5         5      100%           5     100%          5     100%
                             Low                                                                 0            0
                             Not Categorized                                                     0            0
                             Sub-total                  3          3          2         2        5            5          5     100%           5     100%          5     100%
N/A                          High                                                                0            0
                             Moderate                                                            0            0
                             Low                                                                 0            0
                             Not Categorized                                                     0            0
                             Sub-total                  0          0          0         0        0            0          0                    0                   0
N/A                          High                                                                0            0
                             Moderate                                                            0            0
                             Low                                                                 0            0
                             Not Categorized                                                     0            0
                             Sub-total                  0          0          0         0        0            0          0                    0                   0
N/A                          High                                                                0            0
                             Moderate                                                            0            0
                             Low                                                                 0            0
                             Not Categorized                                                     0            0
                             Sub-total                  0          0          0         0        0            0          0                    0                   0
N/A                          High                                                                0            0
                             Moderate                                                            0            0
                             Low                                                                 0            0
                             Not Categorized                                                     0            0
                             Sub-total                  0          0          0         0        0            0          0                    0                   0
N/A                          High                                                                0            0
                             Moderate                                                            0            0
                             Low                                                                 0            0
                             Not Categorized                                                     0            0
                             Sub-total                  0          0          0         0        0            0          0                    0                   0
Agency Totals                High                       0          0          0         0        0            0          0                    0                   0
                             Moderate                   3          3          2         2        5            5          5     100%           5     100%          5     100%
                             Low                        0          0          0         0        0            0          0                    0                   0
                             Not Categorized            0          0          0         0        0            0          0                    0                   0
                             Total                      3          3          2         2        5            5          5     100%           5     100%          5     100%




Prepared by Harper, Rains, Knight & Company, P.A.                                                                                                                         11
                                                FY 2007 FISMA Evaluation


                                             Section C - Inspector General: Question 3
Agency Name:   Farm Credit Administration
               Question 3: Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System Inventory

      3.a.     The agency performs oversight and evaluation to ensure information systems used or operated by a
               contractor of the agency or other organization on behalf of the agency meet the requirements of
               FISMA, OMB policy and NIST guidelines, national security policy, and agency policy.

               Agencies are responsible for ensuring the security of information systems used by a contractor of their
               agency or other organization on behalf of their agency; therefore, self reporting by contractors does not meet
               the requirements of law. Self-reporting by another Federal agency, for example, a Federal service provider,
                                                                                                                              Almost Always (96-100% of
               may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.
                                                                                                                              the time)
               Response Categories:
                - Rarely- for example, approximately 0-50% of the time
                - Sometimes- for example, approximately 51-70% of the time
                - Frequently- for example, approximately 71-80% of the time
                - Mostly- for example, approximately 81-95% of the time
                - Almost Always- for example, approximately 96-100% of the time

               The agency has developed a complete inventory of major information systems (including major
      3.b.     national security systems) operated by or under the control of such agency, including an
               identification of the interfaces between each such system and all other systems or networks,
               including those not operated by or under the control of the agency.
                                                                                                                            Inventory is 96-100%
               Response Categories:                                                                                         complete
                - The inventory is approximately 0-50% complete
                - The inventory is approximately 51-70% complete
                - The inventory is approximately 71-80% complete
                - The inventory is approximately 81-95% complete
                - The inventory is approximately 96-100% complete

      3.c.     The IG generally agrees with the CIO on the number of agency-owned systems. Yes or No.                                  Yes

               The IG generally agrees with the CIO on the number of information systems used or operated by a
      3.d.                                                                                                                             Yes
               contractor of the agency or other organization on behalf of the agency. Yes or No.

      3.e.     The agency inventory is maintained and updated at least annually. Yes or No.                                            Yes

               If the Agency IG does not evaluate the Agency's inventory as 96-100% complete, please identify the known missing systems by
      3.f.     Component/Bureau, the Unique Project Identifier (UPI) associated with the system as presented in your FY2008 Exhibit 53 (if
               known), and indicate if the system is an agency or contractor system.

                                                                                                                               Agency or
                                                                                                Exhibit 53 Unique Project
                         Component/Bureau                           System Name                                                Contractor
                                                                                                     Identifier (UPI)
                                                                                                                                system?




Prepared by Harper, Rains, Knight & Company, P.A.                                                                                                   12
                                                         FY 2007 FISMA Evaluation


                                                Section C - Inspector General: Questions 4 and 5
Agency Name: Farm Credit Administration
                                   Question 4: Evaluation of Agency Plan of Action and Milestones (POA&M) Process
Assess whether the agency has developed, implemented, and is managing an agency-wide plan of action and milestones (POA&M) process.
Evaluate the degree to which each statement reflects the status in your agency by choosing from the responses provided. If appropriate or
necessary, include comments in the area provided.

For each statement in items 4.a. through 4.f., select the response category that best reflects the agency's status.

Response Categories:
 - Rarely- for example, approximately 0-50% of the time
 - Sometimes- for example, approximately 51-70% of the time
 - Frequently- for example, approximately 71-80% of the time
 - Mostly- for example, approximately 81-95% of the time
 - Almost Always- for example, approximately 96-100% of the time
                  The POA&M is an agency-wide process, incorporating all known IT security weaknesses
       4.a.       associated with information systems used or operated by the agency or by a contractor of the       Almost Always (96-100% of the time)
                  agency or other organization on behalf of the agency.
                  When an IT security weakness is identified, program officials (including CIOs, if they own or
       4.b.                                                                                                          Almost Always (96-100% of the time)
                  operate a system) develop, implement, and manage POA&Ms for their system(s).
                  Program officials and contractors report their progress on security weakness remediation to the
       4.c.                                                                                                       Almost Always (96-100% of the time)
                  CIO on a regular basis (at least quarterly).
                  Agency CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly
       4.d.                                                                                                          Almost Always (96-100% of the time)
                  basis.

       4.e.       IG findings are incorporated into the POA&M process.                                               Almost Always (96-100% of the time)

                  POA&M process prioritizes IT security weaknesses to help ensure significant IT security
       4.f.                                                                                                          Almost Always (96-100% of the time)
                  weaknesses are addressed in a timely manner and receive appropriate resources.
                  FCA does not have any outstanding POA&M items as of September 14, 2007.




                                        Question 5: IG Assessment of the Certification and Accreditation Process
Provide a qualitative assessment of the agency's certification and accreditation process, including adherence to existing policy, guidance, and
standards. Provide narrative comments as appropriate.

Agencies shall follow NIST Special Publication 800-37, "Guide for the Security Certification and Accreditation of Federal Information Systems" (May 2004) for
certification and accreditation work initiated after May 2004. This includes use of the FIPS 199, "Standards for Security Categorization of Federal Information
and Information Systems" (February 2004) to determine a system impact level, as well as associated NIST document used as guidance for completing risk
assessments and security plans.

                  The IG rates the overall quality of the Agency's certification and accreditation process as:

                  Response Categories:
                   - Excellent
       5.a.                                                                                                          Good
                   - Good
                   - Satisfactory
                   - Poor
                   - Failing

                  The IG's quality rating included or considered the following aspects of the C&A process: Security plan                 X
                  (check all that apply)
                                                                                                           System impact level           X
                                                                                                           System test and evaluation    X
                                                                                                           Security control testing      X
       5.b.
                                                                                                           Incident handling             X
                                                                                                           Security awareness training   X
                                                                                                           Configurations/patching       X
                                                                                                           Other:
                  C&A process comments: FCA has completed its first three-year cycle for the C&A process, including completing C&As on all
                  agency systems, however, this process is in its infancy and must become an established, reoccurring process within the
                  agency.




Prepared by Harper, Rains, Knight & Company, P.A.                                                                                                             13
                                                        FY 2007 FISMA Evaluation


                                               Section C - Inspector General: Questions 6 and 7
Agency Name:
                       Question 6: IG Assessment of Agency Privacy Program and Privacy Impact Assessment (PIA) Process

               Provide a qualitative assessment of the agency's Privacy Impact Assessment (PIA)
    6.a.
               process, as discussed in Section D II.4 (SAOP reporting template), including adherence
               to existing policy, guidance, and standards.

               Response Categories:
                - Response Categories:
                - Excellent
                - Good
                - Satisfactory
                - Poor
                - Failing
               Comments: FCA has a process in place, which includes the involvement of the Office of General Council and the SAOP, to
               determine if a PIA is necessary. To date FCA has not been required to complete a PIA.




               Provide a qualitative assessment of the agency's progress to date in implementing the
    6.b.       provisions of M-06-15, "Safeguarding Personally Identifiable Information" since the most
               recent self-review, including the agency's policies and processes, and the administrative,
               technical, and physical means used to control and protect personally identifiable
               information (PII).

               Response Categories:                                                                               Excellent
                - Response Categories:
                - Excellent
                - Good
                - Satisfactory
                - Poor
                - Failing
               Comments: Excluding FCA Employee Data, FCA does not store PII on FCA systems of record. FCA has policies and
               procedures in place to reduce risk when FCA examiners obtain PII ad hoc.




                                                          Question 7: Configuration Management

               Is there an agency-wide security configuration policy? Yes or No.                                                    Yes
    7.a.
               Comments: FCA has adopted a standard configuration policy that incorporates the intent of the NIST baseline security configurations. FCA
               has plans to adopt the NIST baseline security configurations with all new technology implemented and document any deviations from the
               NIST security configurations on all systems.

               Approximate the extent to which applicable information systems apply common security
    7.b.       configurations established by NIST.

               Response categories:
                -   Rarely- for example, approximately 0-50% of the time
                                                                                                                Almost Always (96-100% of the time)
                -   Sometimes- for example, approximately 51-70% of the time
                -   Frequently- for example, approximately 71-80% of the time
                -   Mostly- for example, approximately 81-95% of the time
                -   Almost Always- for example, approximately 96-100% of the time




Prepared by Harper, Rains, Knight & Company, P.A.                                                                                                         14
                                                     FY 2007 FISMA Evaluation


                                        Section C - Inspector General: Questions 8, 9, 10 and 11
Agency Name:
                                                           Question 8: Incident Reporting
Indicate whether or not the agency follows documented policies and procedures for reporting incidents internally, to US-CERT, and to law
enforcement. If appropriate or necessary, include comments in the area provided below.

                 The agency follows documented policies and procedures for identifying and reporting
      8.a.                                                                                                                  Yes
                 incidents internally. Yes or No.
                 The agency follows documented policies and procedures for external reporting to US-
      8.b.                                                                                                                  Yes
                 CERT. Yes or No. (http://www.us-cert.gov)
                 The agency follows documented policies and procedures for reporting to law
      8.c.                                                                                                                  Yes
                 enforcement. Yes or No.
                 Comments:




                                                      Question 9: Security Awareness Training
Has the agency ensured security awareness training of all employees, including contractors and those
employees with significant IT security responsibilities?

Response Categories:
 - Rarely- or approximately 0-50% of employees                                                            Almost Always (96-100% of employees)
 - Sometimes- or approximately 51-70% of employees
 - Frequently- or approximately 71-80% of employees
 - Mostly- or approximately 81-95% of employees
 - Almost Always- or approximately 96-100% of employees
                                                       Question 10: Peer-to-Peer File Sharing
Does the agency explain policies regarding peer-to-peer file sharing in IT security awareness training,
                                                                                                                            Yes
ethics training, or any other agency wide training? Yes or No.
                                                  Question 11: E-Authentication Risk Assessments
The agency has completed system e-authentication risk assessments. Yes or No.                                               Yes




Prepared by Harper, Rains, Knight & Company, P.A.                                                                                                15
                               FY 2007 FISMA Evaluation


APPENDIX B

Acronyms and Abbreviations
ATO          Authorization to Operate
BPD          Bureau of Public Debt
C&A          Certification and Accreditation
CIO          Chief Information Officer
CISSP        Certified Information Systems Security Professional
COGCON       Continuity of Government Condition
COOP         Continuity of Operations Plan
CRS          Consolidated Reporting System
FCA/Agency   Farm Credit Administration
FIPS         Federal Information Processing Standards
FISCAM       Federal Information System Controls Audit Manual
FISMA        Federal Information Security Management Act of 2002
FOIA         Freedom of Information Act
FY           Fiscal Year
GAO          Government Accountability Office
HRK          Harper, Rains, Knight & Company, P.A.
HP           Hewlett Packard
HVAC         Heating Ventilating and Air Conditioning
IG           Inspector General
INSA         Internal Network Security Assessment
IRM          Information Resource Management
ISO          Information Security Officer
LARS         Loan Account Reporting System
NFC          National Finance Center
NIST         National Institute of Standards and Technology
OIG          Office of the Inspector General
OMB          Office of Management and Budget
OMS          Office of Management Services
PD           Position Description
PMTS         Property Management Tracking System
POA&M        Plan of Action and Milestones
PPS          Personnel/Payroll System
SAISO        Senior Agency Information Security Officer
SSL          Secure Socket Layer
System       Farm Credit System
US-CERT      United States Computer Emergency Readiness Team
Windows      Microsoft Windows Operating System




Prepared by Harper, Rains, Knight & Company, P.A.                  16
